MATERIAL DEFICIENCIES IDENTIFIED IN FIVE 7(A) RECOVERY 

ACT LOANS RESULTED IN $2.7 MILLION OF QUESTIONED COSTS 





                 Report Number: ROM 11-06 

                 Date Issued: August 22, 2011 





                         Prepared by the 

                   Office of Inspector General 

              U. S. Small Business Administration 

             u.s. Small Business Administration
             Office of Inspector General                                Memorandum
     To: 	   Grady Hedgespeth                                                      Date:   August 22,2011 

             Director, Office of Financial Assistance 


             John A. Miller 

             Director, Office of Financial Program Operations 

             lsi Original Signed 

  From: 	    John K. Needham 

             Assistant Inspector General for Auditing 


Subject: 	   Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of
             Questioned Costs
             ROM 11-06

             This is the second in a series of reports resulting from our ongoing audit of
             purchased 7(a) Recovery Ace loans. The objective of the audit is to determine
             whether purchased 7(a) Recovery Act loans were originated, closed, and
             purchased in accordance with Small Business Administration (SBA) rules and
             regulations, and commercially prudent lending standards. Our first report
             identified four early-defaulted loans that we believe warrant recovery of
             approximately $3.2 million. This report identifies five additional early-defaulted
             loans that resulted in questioned costs of $2.7 million, and warrant immediate
             attention by the SBA. These loans are part of a judgmental sample of 25
             Recovery Act loans, approved for $500,000 or more, that had been purchased as
             of September 30,2010. Of the total $2.7 million questioned in this report, we are
             recommending recovery of approximately $1 million, while the remaining $1.7
             million cannot be recovered due to deficiencies in the SBA's origination of these
             loans.

             Early-defaulted loans are those loans that default within 18 months of initial loan
             disbursement. An early default can be an indication of material loan origination
             deficiencies and as a result, the SBA requires the highest degree of scrutiny to be
             imposed during the pre and post purchase reviews of these loans.

             To assess the internal controls relevant to our audit objective, we reviewed the
             SBA's policies and procedures regarding loan origination, closing and


             1   American Recovery and Reinvestment Act of2009, Public Law 111-5
                                                                                                                                2


purchasing. To answer the objective, we reviewed all origination, closing and
purchase actions as documented in the SBA and lender loan files. We also
reviewed information in the SBA's Loan Accounting System for all loans
examined. We conducted the audit of these five loans from December 2010 to
April 2011 in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

The SBA is authorized under Section 7(a) of the Small Business Act to provide
financial assistance to small businesses in the form of government-guaranteed
loans. These loans are made by participating lenders under an agreement with the
SBA to originate, service, and liquidate loans in accordance with SBA
regulations, policies, and procedures. Some of these loans are made by lenders
using delegated authority, which undergo very limited review by the SBA prior to
loan disbursement, and others are subject to more extensive underwriting,
eligibility review, and approval by the SBA. If a lender fails to comply materially
with SBA regulations, the loan agreement, or does not make, close, service, or
liquidate a loan in a prudent manner, the SBA has exclusive discretion to release
itself, in whole or in part, from liability on the loan guaranty.

The Recovery Act provided the SBA with $730 million to expand the agency's
lending and investment programs, and create new programs to stimulate lending
to small businesses. Under the provisions of the Recovery Act, the SBA
temporarily eliminated the upfront guaranty fees and increased the maximum
guaranty percentage to 90 percent for most 7(a) loans. 2

For three of the loans presented in this report, the SBA completed its purchase or
post purchase reviews and improperly honored its guaranty when repair or partial
denial of the guaranty should have been pursued due to the material
noncompliance 3 we identified with SBA requirements. One of these three loans,
which had been approved by the SBA, resulted in an additional loss that cannot be
recovered due to the SBA's noncompliance in underwriting the loan. For a fourth
loan, the SBA completed a purchase review and fully honored its guaranty;
however, we identified noncompliance by the SBA, which prevented recovery of
the purchased guaranty. Finally, the SBA performed its post purchase review on
a fifth loan, subsequent to the issuance of the draft report, and concurred with our
finding.

The deficiencies identified in the five loans, as fully described in the appendices
of this report, included:

        •    Inadequate assurance of repayment ability;
        •    Ineligible use of proceeds;
        •    Questionable eligibility; and/or
        •    Improper guaranty amount.

2   Under the Recovery Act, the maximum guaranty for SBAExpress loans remained at 50 percent. 

3   For purposes of this report, noncompliance which resulted in or may result in improper payments is considered material. 

                                                                                      3


CONCLUSION

The audit found that lenders and the SBA did not originate and close the five 7(a)
Recovery Act loans in accordance with the SBA's rules and regulations, and
commercially prudent lending standards. Furthermore, SBA loan officers did not
identify the deficiencies in three of the loans during their purchase reviews. The
SBA purchased its guaranty on these five loans, which resulted in approximately
$2.7 million of questioned costs. As a result of the identified deficiencies, we
recommended that the SBA seek recovery of approximately $1 million and ensure
that loan officers take steps to prevent similar deficiencies from occurring in the
future. A draft of this report was provided to the SBA for comment. The SBA
agreed with all of the recommendations and proposed actions that were
responSIve.

RECOMMENDATIONS

We recommend the Director, Office of Financial Program Operations:

1. 	 Seek recovery of $506,250, plus interest, from Heritage Oaks Bank on the
     guaranty paid by the SBA for the loan to [FOIA ex. 4]

2. 	 Seek recovery of$191,702, plus interest, from First Coast Community Bank
     on the guaranty paid by the SBA for the loan to [FOIA ex. 4]
     and [FOIA ex. 4]

3. 	 Seek recovery of$193,500, plus interest, from Valley Bank on the guaranty
     paid by the SBA for the loan to [FOIA ex. 4]      and [FOIA ex. 4]

4. 	 Seek recovery of $106,802, plus interest, from Foster Bank on the guaranty
     paid by the SBA for the loan to [FOIA ex. 4]

5. 	 Ensure all SBA loan officers involved in the loan approval and purchase
     processes understand and implement the steps necessary to identify all
     affiliates and determine their impact on repayment ability, size, and SBA's
     guaranty percentage.

6. 	 Ensure SBA loan officers involved in the purchase process are aware that
     Recovery Act loans may receive less than a 90 percent guaranty and should be
     purchased at the percentage reflected in the loan authorization.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

On June 21, 2011, we provided a draft of this report to the SBA for comment. On
August 4,2011, the SBA provided written comments, which are summarized below and
contained in their entirety in Appendix VI. The SBA agreed with all of the
recommendations and proposed actions that were responsive.
                                                                                           4



Recommendation 1

Subsequent to the issuance of our draft audit report, the Herndon National Guaranty
Purchase Center (NGPC) conducted a thorough review of the loan to [FOIA ex. 4]
     and concurred with the OIG's recommendation that a full recovery be requested of
the lender. Unless mitigating documentation is received from the lender, the SBA will
insist upon recovery of $506,250 from the lender. If the lender refuses to pay, the loan
will be forwarded to SBA headquarters for further action. The SBA's proposed actions
are responsive to recommendation 1.

Recommendation 2

The SBA fully agreed with our recommendation. The NGPC conducted a thorough
review of the loan to [FOIA ex. 4]                 and [FOIA ex. 4]              , and
agreed with our finding. The lender was notified of the SBA's intent for full recovery,
and it did not agree with the SBA's finding. As a result, the NGPC will forward the loan
to SBA headquarters for further recovery action. The SBA's proposed actions are
responsive to recommendation 2.

Recommendation 3

The SBA fully agreed with our recommendation. The NGPC staff met with the lender on
July 18, 2011 and the lender has agreed to reimburse the SBA for the overpaid guaranty
percentage pending approval from their board. The SBA will insist upon full repayment
and if the lender refuses to pay, the loan will be forwarded to the SBA headquarters for
further action. The SBA's proposed actions are responsive to recommendation 3.

Recommendation 4

The SBA agreed with our recommendation, but identified a correction to the recovery
amount. Although the SBA cited a corrected repair amount of$107,603 in its response,
the actual amount agreed upon between the OIG and NGPC was $106,802. Our report
was modified accordingly to reflect the corrected repair amount. The SBA requested full
repayment from the lender and if the lender refuses to pay, the loan will be forwarded to
SBA headquarters for further action. The SBA's proposed actions are responsive to
recommendation 4.

Recommendation 5

The SBA concurred with our recommendation and will begin conducting training in
September based on the new guidance being issued in SOP 50 10 5(D), which is currently
in clearance. The training will be held monthly and will continue until all approval and
purchase staff has a complete understanding of how to identify affiliates and determine
their impact on repayment ability, size, and the SBA guaranty percentage. The SBA's
proposed actions are responsive to recommendation 5.
                                                                                        5


Recommendation 6

The SBA concurred with our recommendation and stated that all NGPC purchase
staff will begin training in September 2011, which will review Recovery Act loan
criteria and emphasize the reasons Recovery Act loans could be subject to
reduced guaranty percentages. The SBA's proposed actions are responsive to
recommendation 6.

ACTIONS REQUIRED

Please provide your management response for each recommendation on SBA Forms
1824, Recommendation Action Sheet, within 30 days from the date of this report. Your
responses should identify the specific actions taken or planned to fully address each
recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access
during this audit. If you have any questions concerning this report, please call me
at 202-205-7390 or Terry Settle, Director, Credit Programs Group
at 703-487-9940.
                                                                                          6


APPENDIX I. [FOIA ex. 4]

The deficiency on this loan resulted in questioned costs of $506,250 that should
be recovered by the SBA. During our ongoing audit of purchased 7(a) Recovery
Act loans, we identified a problematic loan ( [FOIA ex. 4] ) made by Heritage
Oaks Bank (lender) to [FOIA ex. 4]             dba [FOIA ex. 4]
(borrower).

BACKGROUND

Heritage Oaks Bank was authorized by the SBA to make guaranteed loans under
the Preferred Lenders Program (PLP). As a PLP lender, Heritage Oaks Bank was
permitted to process, close, service, and liquidate loans with limited
documentation and review by the SBA.

On February 26,2009, using PLP procedures, the lender approved a $675,000
loan to the borrower for the purchase of an existing business known as
 [FOIA ex. 4]           The first loan disbursement was made on March 20,2009
and the borrower defaulted approximately twelve months later on April 1,2010.
Therefore, this loan is considered an early default loan in accordance with SBA
policy. On September 27,2010, the SBA purchased the principal guaranty for
$506,250 from the secondary market, and completed its post purchase review
subsequent to issuance of the draft report.

RESULTS

Inadequate Assurance of Repayment Ability

The lender's cash flow analysis did not consider the impact the two affiliated
businesses would have on the borrower's repayment ability. In accordance with
Title 13 CFR 120.150, applicants must be creditworthy and loans must be so
sound as to reasonably assure repayment considering past earnings, projected cash
flow, future prospects, the ability to repay the loan with earnings from the
business, and the effects of any affiliates. According to the SBA's Standard
Operating Procedure (SOP) 50 105, the cash flow of the business is the primary
source of repayment. Thus, if the lender's financial analysis demonstrates that the
business lacks reasonable assurance of repayment in a timely manner from the
cash flow of the business, the loan request must be declined. The SOP also
requires the lender to retain affiliate and subsidiary financial statements in its loan
file.

According to the lender, the principal purchased [FOIA ex. 4]                  to
improve his overall cash flow position and support his personal cash flow needs
which could no longer be maintained by the other businesses he owned.
The lender explained that the principal was overextended on his personal debt and
that his other business interests were not strong so he intended to sell them.
                                                                                        7


The principal's personal financial statements showed personal cash flow for 2007
was negative. The lender, however, claimed the principal's debt service position
should improve with the acquisition of [FOIA ex. 4]

In order to demonstrate repayment ability for this loan, the lender only considered
the financial information for [FOIA ex. 4]                     The lender's loan file
did not include any financial information for the borrower's two affiliated
businesses to determine the effect they may have had on the borrower's
repayment ability and there was no evidence to support the lender's claim that
these businesses were operating at break-even. Only 8 months after loan
approval, the lender revised the loan's risk rating from "acceptable" to "watch"
due to the global situation ~f the principal (emphasis added), indicating the
principal's personal debt and affiliated businesses were negatively impacting
[FOIA ex. 4]                Approximately 5 months later, the loan defaulted. We
believe the lender's lack of consideration of the effect of the two affiliates on the
borrower's repayment ability resulted in the default of this loan.

CONCLUSION

Based on the above identified deficiency, this loan should not have been made
and the SBA should seek recovery of $506,250 from the lender.
                                                                                     8


APPENDIX II.        [FOIA ex. 4]                           AND       [FOIA ex. 4]


The deficiency on this loan resulted in a $191,702 improper payment that should 

be recovered. During our ongoing audit of purchased 7(a) Recovery Act loans, 

we identified a problematic loan ( [FOIA ex. 4] ) made by First Coast Community 

Bank (lender) to. [FOIA ex. 4]                  and [FOIA ex. 4] 

(borrower). 


BACKGROUND

First Coast Community Bank was authorized by the SBA to make guaranteed
loans under the Certified Lender Program (CLP). For CLP loans, the SBA makes
both the credit and eligibility decisions, but the SBA reviewer relies heavily on
information the lender provides.

On October 13,2009 the SBA approved a $1,073,000 loan to [FOIA ex. 4]
              and     [FOIA ex. 4]         , to pay outstanding debt, make
renovations, purchase inventory and equipment, and for working capital.
The loan amount subsequently increased to $1,074,000. The first disbursement
was on October 23,2009 and the borrower defaulted five months later on March
23,2010. Therefore, this loan is considered an early default loan in accordance
with SBA policy. A purchase review was completed by the SBA and on
September 10, 2010, the SBA honored its principal guaranty for $877,859.

RESULTS

Ineligible Use of Proceeds

Our audit determined that a portion of the loan was used to refinance debt
originally used for floor plan financing. Floor plan financing is a line of credit
that funds the purchase of retail goods, and is collateralized by those goods.
According to SOP 50 10 5(B), loan proceeds may not be used for floor plan
financing. Further, loan proceeds also may not be used to refinance debt
originally used for a loan purpose that would have been ineligible for SBA
financing at the time it was incurred.

A portion of the SBA loan proceeds was used to refinance $191,702 of same
institution debt, which was originally used for floor plan financing. The purchase
package submitted by the lender to the SBA included the original note for this
debt, which was dated April 9, 2004, and listed the purpose as floor plan
inventory. Although this debt was renewed several times, the lender did not
provide any evidence that the loans were used for anything other than floor plan
inventory. Furthermore, a renewal dated July 26, 2009 stated the purpose was to
amend and restate the original note dated April 9, 2004, indicating all of the
                                                                                     9


renewals were also used for floor plan inventory. The SOP in effect at the time
the original debt was incurred also disallowed floor plan financing.

Nevertheless, in the credit memo and eligibility documentation submitted to the
SBA at the time of loan origination, the lender claimed the purpose of the same
institution debt was a "second mortgage for [FOIA ex. 4]              " Since this
was same institution debt, the lender would have been aware that the actual
original purpose of the loan was floor plan financing. However, given the
description provided in the information submitted by the lender, the SBA would
have had no knowledge that the original purpose of this loan was ineligible for
SBA financing when it approved the loan. Based on the above, the $191,702 debt
refinance should not have been disbursed by the lender.

CONCLUSION

Based on the above identified deficiency, this loan resulted in an improper
payment of $191,702 that should be recovered.
                                                                                         10


APPENDIX III.        [FOIA ex. 4]          AND [FOIA ex. 4]

The deficiencies on this loan resulted in a $967,500 improper payment that cannot
be recovered and a $193,500 improper payment that should be recovered. During
our ongoing audit of purchased 7(a) Recovery Act loans, we identified a
problematic loan ( [FOIA ex. 4] ) made by Valley Bank (lender) to [FOIA ex. 4]
     and[FOIA ex. 4«co-borrowers).

BACKGROUND

On September 29,2009, the SBA approved a $1,290,000 loan to the borrowers to
pay same institution debt and for working capital. This loan was made under the
Standard 7(a) program in which the SBA makes both credit and eligibility
determinations. The first disbursement was on November 6,2009 and the
borrowers defaulted approximately four months later on March 4,2010.
Therefore, this loan is considered an early default loan in accordance with SBA
policy. On July 26,2010, the SBA purchased the principal guaranty for
$1,161,000 from the secondary market and on August 11, 2010, completed its
post purchase review fully honoring its loan guaranty.

RESULTS

Questionable Eligibility

The effects of the borrowers' affiliated businesses were not fully considered in
determining the size and repayment ability of the borrowers. In accordance with Title 13
CFR 120.150, applicants must be creditworthy and loans must be so sound as to
reasonably assure repayment considering past earnings, projected cash flow, future
prospects, the ability to repay the loan with earnings from the business, and the effects of
any affiliates. As defined by SOP 50 10 5(A), affiliation exists when one individual or
entity controls or has the power to control another or a third party or parties controls or
has the power to control both. The SBA considers factors such as ownership,
management, previous relationships with or ties to another entity, and contractual
relationships when determining whether affiliation exists. The SOP requires disclosure
of all affiliates and a determination of the effect they may have on meeting the SBA's
size standards, and whether the SBA's maximum $1.5 million guaranty limit has been
exceeded. The SOP also requires the lender to retain affiliate and subsidiary financial
statements in its loan file.

The SBA did not consider the effect an affiliate, [FOIA ex. 4] ,had on the borrowers'
repayment ability. The lender disclosed this affiliate and provided its financial
information, but the SBA only considered its impact on size and the SBA guaranty
percentage, and not on repayment ability. [FOIA ex. 4]        2008 tax return showed a
net loss of$257,538, indicating that it may have had a negative impact on the borrowers'
repayment ability if it had been considered.
                                                                                           11 



  The principal's 2008 personal tax return, which was submitted to the SBA, showed that
  he also owned       [FOIA ex. 4]                This business, however, was not considered
  in determining the size, repayment ability, or SBA's guaranty percentage. The personal
  tax return showed this affiliate had a business loss indicating a possible negative impact
  on the borrowers' repayment ability.

  Additionally, the borrowers received financial and management support from
[FOIA ex. 4], which was owned by the principal's father, at no charge. Furthermore, the
  principal's father provided the $200,000 required equity injection in the form of debt,
  which was placed on interest only standby, but the interest payments were ultimately
  deferred. Also, the borrowers were going to move into office space owned by the
  principal's father. Based on the above factors, we believe      [FOIA ex. 4] should have
  been considered an affiliate. Nevertheless, [FOIA ex. 4] was not treated as an
  affiliate and the lender did not provide any financial information. Therefore, its effect on
  the borrowers' repayment ability, size, and SBA's guaranty percentage could not be
  determined.

  Since this loan was approved by the SBA, this deficiency does not warrant recovery of
  the guaranty from the lender. However, the SBA should ensure that all SBA loan officers
  involved in the loan approval and purchase processes understand and implement the steps
  necessary to identify all affiliates and determine their impact on repayment ability, size,
  and SBA's guaranty percentage.

  Improper Guaranty Amount

  The SBA purchased this loan at a higher guaranty percentage than authorized. According
  to SOP 50 10 5(A), the maximum SBA guaranty amount outstanding to anyone business
  (including affiliates) shall not exceed $1,500,000. The SBA Policy Notice 5000-1098
  specified that the Recovery Act did not change the maximum SBA guaranteed amount of
  $1,500,000 and required the guaranty percentage for new loans to be less than 90 percent
  when necessary to comply with the $1,500,000 limit.

  At the time ofloan approval, the SBA identified an outstanding SBA loan to one of the
  borrowers' affiliates and therefore, appropriately approved this $1,290,000 loan on
  September 29,2009 with a reduced SBA guaranty of75 percent. The loan, however, was
  recorded in the SBA's loan accounting system with a 90 percent guaranty and the lender
  subsequently sold the loan on the secondary market at a 90 percent guaranty. During the
  post purchase review, the SBA noted the guaranty percentage discrepancy, but believed
  the purchase at 90 percent was appropriate because the loan was a Recovery Act loan.
  Furthermore, the SBA's Guaranty Purchase Tracking System required the loan to be
  purchased at the percentage recorded in the loan accounting system unless the system
  was updated by the Denver Finance Center. As a result, the SBA incorrectly applied a 90
  percent guaranty to the outstanding balance and purchased its principal share from the
                                                                                                                               12


secondary market in the amount of$1,161,000 (90 percent of$1,290,000), which resulted
in a $193,500 principal overpayment that should be recovered. 4

CONCLUSION

Based on the above identified deficiencies, this loan resulted in an improper payment of
$967,500 that cannot be recovered and an improper payment of$193,500 that should be
recovered from the lender. Furthermore, the SBA should (1) ensure that all SBA loan
officers involved in the loan approval and purchase processes understand and implement
the steps necessary to identify all affiliates and determine their impact on repayment
ability, size, and SBA's guaranty percentage, and (2) ensure SBA loan officers involved
in the purchase process are aware that Recovery Act loans may receive less than a 90
percent guaranty and should be purchased at the percentage reflected in the loan
authorization.




4   This amount was calculated as follows: ($1,290,000 multiplied by 90 percent) minus ($1,290,000 multiplied by 75 percent) equals
    $193,500.
                                                                                       13


APPENDIX IV.         [FOIA ex. 4]

The deficiency on this loan resulted in a $106,802 improper payment that should
be recovered. During our ongoing audit of purchased 7(a) Recovery Act loans,
we identified a problematic loan ( [FOIA ex. 4] ) made by Foster Bank (lender) to
[FOIA ex. 4]                              (borrower).

BACKGROUND

On August 24,2009, the SBA approved a $1,000,000 transaction-based revolving
Export Working Capital loan to renew a $1,000,000 SBA guaranteed Export
Working Capital loan held by Foster Bank. The first loan disbursement after
renewal was made on September 16, 2009 and the borrower defaulted
approximately 3 months later on December 11, 2009. Therefore, this loan is
considered an early default loan in accordance with SBA policy. A purchase
review was completed by the SBA and on May 12,2010, the SBA honored its
principal guaranty for $426,150.

RESULTS

Ineligible Use of Proceeds

The lender did not take appropriate measures to ensure that the loan proceeds
were used as required in the loan authorization. The SBA's SOP 50 10 5(A)
states that on a transaction-based revolving line of credit where draws are made
against foreign purchase orders or contracts, the advance rate shall not exceed 90
percent of the purchase order/contract or the borrower's costs (including
overhead), whichever is less. Furthermore, the loan authorization states that the
lender must assure the funds advanced for each transaction do not exceed 90
percent of purchase orders, letters of credit, and outstanding foreign receivables.

Our audit found that the borrower requested more than 90 percent of the amount
listed on the letters of credit for 11 of the 15 transactions funded by the line of
credit pre and post renewal. For example, on September 16, 2009, the borrower
requested funds from the lender in the amount of $77,400 for the corresponding
$82,080 letter of credit. This loan advance represents 94.3 percent of the letter of
credit, which exceeded the 90 percent maximum allowed by the SBA. When all
of the draws made against the 11 letters of credit were considered, they exceeded
the maximum amount allowed by $106,802. The outstanding principal balance
purchased by the SBA included these transactions, and therefore, we are
questioning the entire ineligible amount.

CONCLUSION

Based on the above identified deficiency, this loan resulted in an improper
payment of $106,802 that should be recovered.
                                                                                        14


APPENDIX V.        [FOIA ex. 4]

The deficiency on this loan resulted in a $763,277 improper payment that cannot
be recovered. During our ongoing audit of purchased 7(a) Recovery Act loans,
we identified a problematic loan ( [FOIA ex. 4] ) made by American Bank of
Commerce (lender) to [FOIA ex. 4]                    (borrower).

BACKGROUND

On April 9, 2009, the SBA approved a $1,350,000 loan to the borrower for
working capital and to refinance outstanding debt to multiple creditors. This loan
was made under the Standard 7(a) program in which the SBA makes both credit
and eligibility determinations. The loan was disbursed on June 22, 2009 and the
borrower defaulted approximately six months later on January 1, 2010.
Therefore, this loan is considered an early default loan in accordance with SBA
policy. A purchase review was completed by the SBA and on August 3,2010, the
SBA honored its principal guaranty for $769,037. As of April 29, 2011, the
SBA's share of the loan balance was $763,277, which reflected recoveries
received after purchase.

RESULTS

Inadequate Assurance of Repayment Ability

The SBA did not consider the effect the borrower's affiliated business had on
repayment ability. In accordance with Title 13 CFR 120.150, applicants must be
creditworthy and loans must be so sound as to reasonably assure repayment
considering past earnings, projected cash flow, future prospects, the ability to
repay the loan with earnings from the business, and the effects of any affiliates.
As defined by SOP 50 10 5(A), affiliation exists when one individual or entity
controls or has the power to control another or a third party or parties controls or
has the power to control both. The SBA considers factors such as ownership,
management, previous relationships with or ties to another entity, and contractual
relationships when determining whether affiliation exists. The SOP requires
disclosure of all affiliates and a determination of the effect any affiliates have on
the applicant.

Although the lender reported an affiliate on the eligibility checklist and also made
reference to the affiliate in its credit memo, the SBA did not take into
consideration the impact this affiliate had on the ultimate repayment ability of the
borrower. The SBA's global cash flow analysis only took into account the
financial information of the borrower and one of the three guarantors who was
ultimately released from the guaranty. This analysis was prepared and approved
by SBA loan specialists prior to loan approval. The SBA's global cash flow
provided debt service coverage of 1.12, with excess cash available of $29,000.
A December 31, 2007 cash flow statement of the affiliated business provided to
                                                                                      15


the SBA by the lender showed negative cash available of $96,479 before
consideration of debt service. Furthermore, the affiliate's December 31, 2007
balance sheet reported $9.3 million of outstanding debt. Although, the SBA did
not request 2008 financial information, it appears this affiliated business
negatively impacted the repayment ability of the borrower. As a result, if the
affiliate's financial information had been considered, this loan may not have been
made. Since this loan was approved by the SBA, this deficiency does not warrant
any recovery of the purchased guaranty.

CONCLUSION

Based on the above identified deficiency, the SBA should ensure that all SBA
loan officers involved in the loan approval and purchase processes understand and
implement the steps necessary to identify all affiliates and determine their impact
on repayment ability.
                                                                                    16


APPENDIX VI. AGENCY COMMENTS 





                        u.s. SMALL BUSINESS ADMINISTRATION
                                WASHINGTON, D.C. 20416




                                  MEMORANDUM 

                                   August 4,2011 



To: 	     Peter L. McClintock
          Deputy Inspector General

From: 	   John A. Miller
          Director, Office of Financial Program Operations

Subject: 	 Response to Draft Report: "Material Deficiencies Identified in Five 7(A)
           Recovery Act Loans Resulted in $2.7 Million of Questioned Costs", Project
           NO.10508A

Thank you for the opportunity to review the draft report. We appreciate the role the
Office ofInspector General (OIG) plays in assisting management in ensuring that these
programs are effectively managed.

On February 17, 2009, President Obama signed into law the American Recovery and
Reinvestment Act of2009 (the "Recovery Act") (P.L. 111-5). Section 501 of the
Recovery Act authorized SBA to reduce or eliminate certain fees on 7(a) and 504 loans.
Section 502 of the Recovery Act authorized SBA to guarantee up to 90 percent of a 7(a)
loan except for SBA Express. The loans in this report were made under sections 501 and
502.

The report identifies five early-defaulted loans that OIG believes warrant immediate
attention by the agency in order to recover approximately $1 million of improper
payments. OIG states that an additional $1.7 million cannot be recovered due to
deficiencies in the SBA's origination of these loans.
    • 	 One loan was purchased from the secondary market in September 2010, but a post
        purchase review had not been completed by SBA when the draft audit was
        prepared. A review has since been completed.
    • 	 Three loans were purchased from the secondary market and SBA had conducted
        the post purchase reviews at the time of the audit.
                                                                                        17


     • 	 One loan had received a pre-purchase review prior to the audit, however the
         guaranty funds cannot be recovered.

Deficiencies identified in the five loans included:
   • 	 Inadequate assurance of repayment ability;
   • 	 Ineligible use of proceeds;
   • 	 Questionable eligibility; and/or
   • 	 Improper guaranty amount.

OFPO has been in frequent communication with OIG during this process.


OFPO Management's response to the recommendations in the draft report is noted as
follows:

1.    Seek recovery of $506,250 plus interest, from Herital:e Oaks Bank on the
guaranty paid by SBA for the loan to [FOIA ex. 4]

OFPO concurs with this recommendation. The primary deficiency for this loan was
inadequate assurance of repayment. OFPO recognizes that the lender did not include any
financial information on the borrower's two affiliated businesses to determine repayment
ability. A post-purchase review had not been conducted prior to the OIG draft report
being issued. The Herndon National Guaranty Purchase Center (NGPC) has since
conducted a thorough review and concurs with OIG's findings that a full recovery be
requested of the lender. The NGPC staff notified the lender of the primary deficiencies
found in the review. Absent sufficient mitigating documentation from the lender, OFPO
will insist upon full recovery of $506,250 from the lender by August 12,2011. If the
lender refuses to pay, the loan will be forwarded to HQ for further action.

2.    Seek recovery of $191,702, plus interest, from First Community Bank on the
guaranty paid by SBA for the loan to    [FOIA ex. 4]            and [FOIA ex. 4]


OFPO concurs with this recommendation. The major deficiency for this loan was
ineligible use of proceeds. After a thorough review of the case, the Herndon NGPC
agrees with OIG's findings that a portion of the loan was used to refinance debt originally
used for floor plan financing. Herndon NGPC staff notified the lender in July of SBA' s
intent for full recovery. The lender responded on August 3, 2011, stating that they do not
agree with SBA's findings. Herndon NGPC will forward the loan to HQ for further
recovery action.

3.    Seek recovery of $193.500. plus interest, from Valley Bank on the guaranty paid
by SBAfor the loan to [FOIA ex. 4]       and [FOIA ex. 4]

OFPO concurs with this recommendation. The major deficiency for this loan was
questionable eligibility and/or an improper guaranty amount. After a thorough review of
                                                                                          18


the case by the Citrus Heights Standard 7(a) Loan Processing Center and the Herndon
NGPC staff, OFPO concurs that the the loan should have been purchased at a 75%
guaranty rate instead of 90% and that this should have been caught at the time of post
purchase review. OFPO also concurs with OIG's recommendation that affiliates should
be considered in the determination of repayment ability. Herndon NGPC staff met with
the lender on July 18, 2011, and the lender has agreed to reimburse SBA for the overpaid
guaranty percentage pending approval from their board. OFPO will insist upon full
repayment by August 15,2011. If the lender refuses to pay, the loan will be forwarded to
HQ for further action.

 4.   Seek recovery of $81,502, plus interest, from Foster Bank on the guaranty paid
by SBA for the loan to [FOIA ex. 4]

OFPO concurs with this recommendation, but has identified a correction to the recovery
amount. The major issue involving this loan was ineligible use of proceeds. OFPO
recognizes that the borrower requested more than 90 percent of the amount listed on the
letters of credit, exceeding the maximum amount allowed. OFPO concurs that the Post
Purchase Review should be adjusted to account for this material deficiency. After a
thorough review of the case, the repair calculated by NGPC is higher than stated in OIG's
finding. The appropriate repair is $107,603. OIG staff met with NGPC staff on July 19,
2011, and OIG concurs with the revised amount. OFPO requested full repayment by
August 15,2011. If the lender refuses to pay, the loan will be forwarded to HQ for
further action.
5.      Ensure all SBA loan officers involved in the loan approval and purchase
processes understand and implement the steps necessary to identify all affiliates and
determine their impact on repayment ability, size, and SBA guaranty percentage.

OFPO concurs with this recommendation. Beginning in September, OFPO will conduct
training derived from the new guidance being issued in SOP 50-10 5(D) currently in
clearance at HQ. Training will be held monthly for Loan Officers, Lead and Supervisory
Loan Specialists. Training will continue until all approval and purchase staff have a
complete understanding of the steps on how to identify 'affiliates' and determine their
impact on repayment ability, size and SBA Guaranty.

 6.   Ensure SBA loan officers involved in the purchase process are aware that
Recovery Act loans may receive less than a 90 percent guaranty and should be
purchased at the percentage reflected in the loan authorization.

OFPO concurs with this recommendation. All Herndon NGPC purchase staff will begin
training on September 14, 2011 and continue monthly as needed. The training will
review Recovery Act loan criteria and emphasize that loans made under this program are
subject to a reduced guaranty percentage if this criteria is not met. The training will also
focus on the reasons that would result in a reduced guaranty percentage.

Again, thank you for the opportunity to review the draft report. Please let us know if you
need additional information or have any questions regarding our response.
